ACTIONS TAKEN AND NEEDED TO
  IMPLEMENT MANDATES AND
 ADDRESS RECOMMENDATIONS
   REGARDING RAIL SAFETY
    Federal Railroad Administration

     Report Number: CR-2008-072
     Date Issued: August 26, 2008
           U.S. Department of
                                                                      Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Actions Taken and Needed                                            Date:    August 26, 2008
           to Implement Mandates and Address
           Recommendations Regarding Rail Safety
           Federal Railroad Administration
           Report Number CR-2008-072

  From:                                                                                       Reply to
           David Tornquist                                                                    Attn. of:   JA-50
           Assistant Inspector General for Rail and Maritime
             Program Audits and Economic Analysis

    To:    Federal Railroad Administrator

           This report presents the results of the Office of Inspector General’s (OIG) audit of
           certain Federal Railroad Administration (FRA) actions to promote rail safety. The
           objective of this audit was to assess FRA’s progress in implementing relevant
           mandates established by Congress and recommendations made by the National
           Transportation Safety Board (NTSB) and our office.

           We conducted this audit in accordance with generally accepted Government
           Auditing Standards prescribed by the Comptroller General of the United States.
           We reviewed 50 statutory rail safety mandates passed by Congress from 1990 1
           through 2007, 177 recommendations made by NTSB from 1989 through 2007, and
           16 recommendations made by our office from 2003 through 2007. Exhibit A
           contains additional details on our objective, scope, and methodology.

           RESULTS IN BRIEF
           FRA has addressed most congressional mandates and NTSB and OIG
           recommendations regarding rail safety by issuing rules, completing studies,
           establishing oversight programs and processes, or disseminating model legislation
           to states. FRA closed 43 of 48 (90 percent) relevant congressional mandates, 133
           of 177 (75 percent) NTSB recommendations, and 12 of 16 (75 percent) of the OIG
           recommendations we examined. However, 5 congressional rail safety mandates

           1
               Throughout this report, unless otherwise indicated, calendar year data are reported.
                                                                                   2


still need to be implemented and 44 NTSB recommendations and 4 OIG
recommendations have not been fully addressed (see table 1).

          Table 1. Number of Open Rail Safety Mandates and
                   Recommendations and Time Open
                        As of April 30, 2008

                                                    Average Time   Range of Time
                                       Number of        Open           Open
      Open Items                       Open Items     (in years)     (in years)
Congressional Mandates                    5*              2.2        0.3 to 2.7
NTSB Recommendations                      44              4.9        1.0 to 18.8
OIG Recommendations                       4               2.1        1.0 to 3.9
Source: OIG Analysis.
*
  Three of these open mandates were overdue.

The five open congressional rail safety mandates include additional measures to
enhance the transportation of hazardous materials and improvements to the design
and strength of rail tank cars (see Exhibit B). They have been open for an average
of 2.2 years, ranging from 0.3 to 2.7 years. As of April 2008, three mandates were
overdue because of delays in conducting related research; one met the initial
statutory deadline, but still had not been completed; and one is not overdue
because it received an extended deadline of 1 year. In addition to these five open
mandates, we determined that 4 of the 43 closed mandates are ongoing because
they require FRA to take periodic actions to promote safety, such as ensuring the
appropriate enforcement of laws that protect railroad employees (see Exhibit C).

As of April 2008, 31 of 44 (70 percent) of the open NTSB rail safety
recommendations were classified as open acceptable or open alternative response
(see Exhibit D). The open NTSB recommendations include the need to enhance
passenger equipment rail car safety standards and improve the safety of tank cars
that transport hazardous materials. They have been open for an average of
4.9 years, ranging from 1.0 to 18.8 years.

Finally, 4 of 16 (25 percent) OIG recommendations remained open, as of
April 2008 (see Exhibit E). These recommendations cover areas such as
collecting national grade crossing inventory data, reporting grade crossing
collisions, and reducing sight obstructions at grade crossings. They have been
open for an average of 2.1 years, ranging from 1.0 to 3.9 years.

Although FRA has made significant progress, it can be more responsive to
congressional mandates and recommendations regarding rail safety. Specifically,
we found that:
                                                                                          3


• FRA did not have a centralized process for tracking and monitoring its
  implementation of congressional rail safety mandates. According to FRA
  officials, to identify rail safety mandates and actions taken, they relied on the
  regulatory agenda and rulemaking process as well as files maintained by staff
  responsible for addressing rail safety legislative issues. In addition, FRA relied
  heavily on the institutional knowledge of its senior safety officials. As a result,
  information on the actions taken to implement congressional rail safety
  mandates and meet statutory deadlines was not readily available for use in
  planning needed work, establishing milestones, assessing progress, and
  reporting accomplishments.

       FRA could improve its responsiveness by establishing a centralized process for
       documenting, tracking, and monitoring congressional rail safety mandates that
       includes planned and actual milestones. FRA officials told us that a
       centralized process for tracking the implementation of all open congressional
       mandates would serve three purposes. First, a tracking process would facilitate
       FRA’s planning and managing of work assignments to implement these
       mandates, particularly those that require periodic actions. Second, a tracking
       process would provide information on the resources needed to implement open
       congressional mandates for FRA’s annual budget requests. Third, a tracking
       process would provide FRA with information on its progress in implementing
       congressional mandates for reports to the Congress, public, and others.

• FRA rarely met the statutory mandate—delegated to it by the Secretary—that
  requires the Secretary to respond to NTSB’s safety recommendations within
  90 days of issuance. 2 From 1989 through 2007, FRA missed this deadline
  83.6 percent of the time (148 of 177 recommendations). On average, it took
  FRA 198 days to respond to NTSB’s recommendations. We also found that
  FRA did not routinely provide NTSB with timetables for implementing rail
  safety recommendations with which it fully or partially concurred or updates
  on the status of open recommendations. FRA could address NTSB’s rail safety
  recommendations in a more timely manner by: (1) submitting a written
  response within 90 days and including a timetable for each recommendation
  that it plans to implement and (2) strengthening its processes for monitoring
  and tracking these recommendations.

A complete list of recommendations made in this report can be found on page 8.




2
    49 U.S.C. §1135, “Secretary of Transportation’s Response to Safety Recommendation.”
                                                                                                                     4


FINDINGS

FRA Implemented Many Congressional Rail Safety Mandates Over the
Past 18 Years, but a Centralized Process Is Needed to Track and
Monitor Results
FRA made significant progress in closing out congressional mandates to improve
rail safety that were established from 1990 through 2007. During this 18-year
period, Congress established 50 rail safety mandates 3 that were included in 15
laws and 4 reports issued by the House of Representatives (see table 3 in Exhibit
A). Collectively, these laws and reports authorized railroad safety programs and
made appropriations available for program operations, among other things.

We found that FRA had closed 43 of 48 (90 percent) congressional safety
mandates, primarily by conducting various studies of the railroads’ operating
practices and transmitting the reports to Congress. For example, it transmitted
reports to Congress in September 1994 on the safe transportation of hazardous
materials by rail, in May 2000 on positive train control systems, and in
August 2005 on the safe placement of train cars. FRA also issued final rules to
improve train operations. For example, FRA issued rules to upgrade power brakes
on passenger and freight trains, enhance track safety standards, and promote safety
at grade crossings.

Nonetheless, as of April 2008, we identified five congressional rail safety
mandates that had not yet been implemented. These mandates had been open for
an average of 2.2 years, ranging from 0.3 to 2.7 years. Three of the five open
mandates had missed their statutory deadlines due to delays in conducting related
research (see mandates 1, 2, and 4 in Exhibit B). One other open mandate met the
initial statutory deadline through FRA’s issuance of a notice of proposed
rulemaking to strengthen requirements for tank cars carrying poison inhalation
hazard products, but a final rule has not been issued (see mandate 3 in Exhibit B).
Another open mandate is not overdue because it received an extended deadline of
1 year (see mandate 5 in Exhibit B). 4 In addition to these 5 open mandates, 4 of
the 43 closed mandates are ongoing because they require FRA to take periodic
actions to promote safety, such as ensuring the appropriate enforcement of laws
that protect railroad employees (see mandates 1 through 4 in Exhibit C).

Although FRA has implemented many congressional rail safety mandates, we
found that FRA did not have a centralized process for documenting, tracking, and

3
  We did not consider 2 of the 50 rail safety mandates relevant to our analysis because the authorized programs did not
   receive appropriations.
4
  This mandate appeared in the Explanatory Statement for the Department’s Fiscal Year 2008 Appropriations Act.
                                                                                                               5


monitoring its implementation of such mandates. According to FRA officials, to
identify rail safety mandates and actions taken, they relied on the regulatory
agenda and rulemaking process as well as files maintained by staff responsible for
addressing specific rail safety legislative issues. We observed that FRA also relied
heavily on the institutional knowledge of its senior safety officials. As a result,
information on the actions taken to implement congressional rail safety mandates
and meet statutory deadlines was not readily available for use in planning work
assignments, establishing milestones, assessing progress, and reporting
accomplishments.

According to FRA, a centralized process for tracking the implementation of all
open congressional mandates would serve three purposes. First, a centralized
tracking process would facilitate FRA’s planning and managing of work
assignments to implement these open mandates, particularly those that require the
Secretary to take certain actions on a regular or periodic basis. For example, on a
regular basis, the Secretary must consult with the Secretary of Labor to ensure the
appropriate enforcement of laws that affect safe working conditions for railroad
employees. In addition, the Secretary is required to periodically revise model
prevention strategies and enforcement codes regarding trespassing and vandalism
on railroad property.

Second, a centralized tracking process would provide information on the resources
needed to implement congressional mandates for FRA’s annual budget requests.
It would also provide information to assist FRA in the proper allocation of
appropriations to open mandates. Third, a centralized tracking process would
provide FRA with information on its progress in implementing congressional
mandates for reports to the Congress, public, and others.

FRA Addressed Many Rail Safety Recommendations Over the Past
19 Years, but Could Improve the Timeliness of Its Actions
FRA made significant progress in addressing rail safety recommendations that
resulted in NTSB closing 133 recommendations from 1989 through 2007.
Similarly, FRA’s actions resulted in the OIG closing 12 recommendations from
2003 through 2007. Nonetheless, the timeliness of FRA’s responses to these rail
safety recommendations could be improved. NTSB safety recommendations
propose a course of action for correcting a deficiency in railroad operations that
FRA may adopt in full, in part, or decline. On the other hand, if FRA does not
agree in full or in part to our recommendations or propose alternative solutions
that would satisfy the intent of the recommendations, the matter is referred to the
Office of the Secretary of Transportation for resolution.5

5
    DOT Order 8000.1C, “Office of Inspector General Audit and Investigation Report Findings, Recommendations, and
    Followup Action,” July 20, 1989.
                                                                                          6


As of April 2008, NTSB had closed 133 of 177 (75 percent) rail safety
recommendations made to FRA from 1989 through 2007. The 133 closed
recommendations addressed a number of safety problems such as the need to:
(1) improve the information collected by event recorders during train accidents,
(2) upgrade protections in passenger rail cars under normal and emergency
operating conditions, and (3) increase the durability and reliability of rail tank cars
that transport hazardous materials. For 18 of the 133 closed recommendations,
NTSB did not agree with the responses provided by FRA and classified those
recommendations as “Closed Unacceptable Action.” That is, NTSB did not agree
with FRA’s responses, but agreed to close them.

As of April 2008, NTSB classified 44 rail safety recommendations as open for a
period of 1.0 to 18.8 years. These open NTSB recommendations focus on safety
concerns such as, enhancing passenger rail car safety standards and ensuring the
appropriate placement of tank cars carrying hazardous materials in freight train
consists. 6 Table 2 below shows the status of each recommendation NTSB issued
to FRA. Similarly, we classified four OIG rail safety recommendations as open
that focus on improving grade crossing safety.

        Table 2. Status of NTSB Recommendations Issued to FRA
                           (1989 through 2007)
          Status - Response                                                    Number
          Open - Acceptable Response                                                 29
          Open - Await Response                                                       7
          Open - Unacceptable Response                                                6
          Open - Acceptable Alternate Response                                        2
          Open - Response Received                                                    0
          Subtotal Open Recommendations                                              44
          Closed - Acceptable Action                                                 75
          Closed - Unacceptable Action                                               18
          Closed - Acceptable Alternate Action                                       17
          Closed - Reconsidered                                                      11
          Closed - No Longer Applicable                                               5
          Closed - Superseded                                                         1
          Closed - Unacceptable Action/Superseded                                     3
          Closed - Acceptable Action/Superseded                                       3
          Closed - Exceeds Recommended Action                                         0
          Closed - Unacceptable Action/No Response Received                           0
          Subtotal Closed Recommendations                                           133
          Total Open and Closed Recommendations                                     177
        Source: NTSB.

6
    Train consists are coupled locomotives and railcars that make up trains.
                                                                                7


FRA Did Not Routinely Meet the Statutory Deadline for Submitting an Initial
Response to NTSB’s Recommendations
From 1989 through 2007, FRA rarely submitted an initial formal response to
NTSB’s safety recommendations within 90 days of receipt, as required by law.
FRA missed the statutory deadline for 148 of 177 (83.6 percent) rail safety
recommendations. On average, it took FRA 198 days to respond initially to
NTSB’s safety recommendations. FRA’s failure to routinely respond to NTSB’s
recommendation in a timely manner could result in delays in safety improvements
on our Nation’s rail lines.

We found that FRA does not have adequate procedures to ensure that it routinely
complies with the statutory deadline to respond to NTSB’s recommendations
within 90 days. Establishing adequate procedures may virtually eliminate FRA’s
delinquency in responding to rail safety recommendations.

FRA Did Not Routinely Provide NTSB with Timetables and Updates on the
Progress Made in Addressing Open Safety Recommendations
The Department requires that all actions proposed in response to NTSB’s
recommendations be pursued expeditiously. When FRA fully or partially concurs
with a rail safety recommendation, the initial response must include an
implementation timetable. However, our analysis of the 44 open NTSB
recommendations found that FRA had not submitted any implementation
timetables with its initial written response to the 25 recommendations to which it
fully or partially concurred. This omission occurred because FRA did not have a
procedure to ensure that an implementation timetable was submitted to NTSB,
when required.

Further, FRA did not routinely update—in writing—NTSB on the status of actions
taken to address rail safety recommendations. We found that FRA’s most recent
correspondence with NTSB on the status of 44 open recommendations was an
average of 2 years old. Moreover, for 4 of these 44 recommendations, FRA had
not updated NTSB on their status for nearly 6 years. According to FRA officials,
they relied heavily on oral communications with NTSB and, to their credit,
routinely met with NTSB to discuss the status of recommendations and actions
taken. Nonetheless, since FRA had not consistently provided NTSB with the
required written updates on the implementation of safety recommendations, its
progress in implementing the open NTSB recommendations may have not been
fully communicated to NTSB.

FRA Made Significant Progress in Implementing OIG Recommendations
FRA implemented 12 of 16 (75 percent) OIG rail safety recommendations made
from 2003 through 2007. The closed recommendations primarily focused on
                                                                                  8


actions to further reduce collisions between trains and motor vehicles at grade
crossings. For example, FRA strengthened its oversight by: (1) implementing an
action plan to conduct periodic reviews of the railroads’ grade crossing collision
records to identify unreported collisions, (2) reconciling its grade crossing
accident records with records maintained by the National Response Center each
month to ensure that the railroads report all grade crossing collisions to FRA’s
accident database, and (3) implementing an initiative to encourage states to close
unneeded grade crossings.

As of April 2008, 4 of 16 (25 percent) OIG recommendations remained open.
Covering areas such as collecting national grade crossing inventory data, reporting
grade crossing collisions, and reducing sight obstructions at grade crossings, these
four recommendations have been open for an average of 2.1 years, ranging from
1.0 to 3.9 years.

Further, our 2004 recommendation to establish mandatory reporting requirements
for railroads and states through rulemaking or legislation to improve the accuracy
and completeness of FRA’s national grade crossing inventory data—to identify
high-risk grade crossings and strategies to mitigate risks—has been open for
nearly 4 years. During that time period, FRA has maintained that it lacks the
statutory authority to require the states to report grade crossing inventory data.
The Administration’s rail safety reauthorization bills for 1999, 2002, 2003, and
2007 included a provision to address this recommendation. FRA officials
considered the option of pursuing a rulemaking, but rejected it, and instead
decided that legislation was the best way to obtain grade crossing inventory data
from both the states and railroads.

RECOMMENDATIONS
We recommend that FRA:

1. Establish a centralized process for documenting, tracking, and monitoring
   congressional rail safety mandates that includes planned and actual milestones.

2. Establish procedures to ensure that NTSB receives an:

   a. initial response for each rail safety recommendation within 90 days of
      issuance and

   b. implementation timetable for each rail safety recommendation that FRA
      agrees to implement.
                                                                                                                       9


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to FRA for comment on July 10, 2008. On
July 29, 2008, FRA provided us with its formal response, which is contained in its
entirety in the Appendix.       FRA concurred with our audit results and
recommendations, and agreed to take corrective actions. We agreed with the
corrective actions proposed by FRA and found these actions responsive to the
intent of our recommendations.

Recommendation 1: FRA concurred with our recommendation to establish a
centralized process for documenting, tracking, and monitoring congressional rail
safety mandates. FRA agreed that a centralized process would make information
on the actions taken to implement mandates and meet statutory deadlines more
readily available for use in planning work assignments, establishing milestones,
assessing progress, preparing budgets, and reporting accomplishments. FRA plans
to use its new Microsoft SharePoint 7 tracking system to assist in its regulatory
planning and tracking of these mandates.

OIG Response: We consider FRA’s proposed actions reasonable. We agree with
FRA’s recent implementation of the new Microsoft SharePoint tracking system in
its Office of Safety. However, FRA did not provide a date for completing the full
implementation of its new centralized tracking system for other FRA offices.

Recommendation 2a: FRA concurred with our recommendation to establish
procedures to ensure that NTSB receives an initial response for each rail safety
recommendation within 90 days of issuance. FRA stated that it has revised its
procedures for addressing NTSB safety recommendations to ensure that FRA
submits an initial response to NTSB within 90 days.

OIG Response: We consider FRA’s proposed actions reasonable. FRA’s new
procedures should significantly improve the Agency’s compliance in meeting
statutory deadlines.

Recommendation 2b: FRA concurred with our recommendation to establish
procedures to ensure that NTSB receives an implementation timetable for each rail
safety recommendation that FRA agrees to implement. FRA plans to submit a
tentative timetable with its initial response to NTSB recommendations, and will
periodically update the timetable as circumstances and priorities change.


7
    Microsoft SharePoint is an intranet-based application with the flexibility to grant access to specified individuals to
    read and edit information.
                                                                            10


OIG Response: We consider FRA’s proposed actions reasonable. However,
FRA did not provide a target date for establishing and disseminating the
procedure.

ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we request that FRA provide us with
target completion dates for implementing recommendations 1 and 2b, as discussed
above, within 30 calendar days from the date of this report.

We appreciate the courtesies and cooperation of FRA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-1981 or Brenda R. James, Program Director, at (202) 366-0202.



                                      #
                                                                                     11




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of this audit was to assess FRA’s progress in implementing
congressional mandates and addressing recommendations made by NTSB and
OIG regarding railroad safety. To accomplish this objective, we obtained,
reviewed, and analyzed data on mandates that were included in 15 laws enacted by
Congress from 1990 through 2007, NTSB recommendations issued from 1989
through 2007, and OIG recommendations issued from 2003 through 2007. In
addition, we interviewed officials from FRA and NTSB.

To assess the implementation of congressional rail safety mandates, we
interviewed appropriate officials in FRA’s Office of Safety and Office of Chief
Counsel. We analyzed pertinent congressional documents, including FRA’s
authorizing legislation, reauthorization legislation, annual appropriation laws, and
other legislation as well as conference and committee reports (see table 3 below).
To determine whether each congressional mandate had been implemented by
FRA, we reviewed applicable documents obtained from FRA and Federal statutes,
including the United States Code, the Code of Federal Regulations, the Unified
Regulatory Agenda, and the Federal Register. For overdue congressional
mandates, we calculated the number of years and months that had elapsed after the
statutory deadlines established by Congress.

     Table 3. Rail Safety Mandates Established by Congress
                       (1990 through 2007)

                                                                  Public Law
 Name or Short Title of Legislation                                Number
 Hazardous Materials Transportation Uniform Safety Act             101-615
 of 1990
 Department of Transportation and Related Agencies                  102-143,
 Appropriations Act, 1992                                            Title V
 Rail Safety Enforcement and Review Act, 1992                        102-365
 Amtrak Authorization Development Act, 1992                          102-533
 Hazardous Materials Transportation Authorization Act of            103-311,
 1994                                                                 Title I
 Federal Railroad Safety Authorization Act of 1994                  103-440,
                                                                 Titles II and III
 Department of Transportation and Related Agencies                   104-50
 Appropriations Act, 1996a
 Small Business Regulatory Enforcement Fairness Act of              104-121,
 1996                                                                Title II


Exhibit A. Objective, Scope, and Methodology
                                                                                  12


                                                                     Public Law
    Name or Short Title of Legislation                                Number
    Debt Collection Improvement Act of 1996                           104-134
    Department of Transportation and Related Agencies                  106-69
    Appropriations Act, 2000b
    Consolidated Appropriations Resolution, 2003c                      108-7
    Safe, Accountable, Flexible, Efficient Transportation              109-59
    Equity Act: A Legacy for Users, 2005
    Transportation, Treasury, Housing and Urban                       109-115
    Development, The Judiciary, the District of Columbia,
    and Independent Agencies Appropriations Act, 2006d
    Implementing Recommendations of the 9/11 Commission                110-53
    Act of 2007
    Consolidated Appropriations Act, 2008: Division K,                110-161
    Transportation, Housing and Urban Development, and
    Related Agencies Appropriations Act, 2008
Source: FRA and OIG.
a
  Mandate established in House Report 104-286, October 20, 1995.
b
  Mandate established in House Report 106-355, September 30, 1999.
c
  Mandate established in House Report 108-10, February 13, 2003.
d
  Mandate established in House Report 109-153, June 24, 2005.

To evaluate the status of NTSB recommendations issued to FRA, we met with
NTSB officials and obtained a listing of open recommendations addressed to FRA.
We also met with FRA officials and obtained a listing of NTSB recommendations
that were classified as open. (The oldest open NTSB recommendation was issued
to FRA on July 14, 1989.)           To validate the open NTSB rail safety
recommendations, we analyzed NTSB’s recommendation database and compared
it to documentation obtained from FRA, identifying the number of open and
closed recommendations addressed to FRA from 1989 through 2007.

To further assess the status of NTSB recommendations, we reviewed all
correspondence between NTSB and FRA concerning the open recommendations.
We also reviewed correspondence between NTSB and FRA on recommendations
classified as “Closed Unacceptable Action,” to determine the reason for FRA
opting not to implement the recommendation. We calculated the number of years
that elapsed from the time the recommendation was issued to the day FRA
submitted an initial response to NTSB. For closed recommendations, we also
calculated the number of years that elapsed from the time the recommendation was
issued to the day that NTSB closed the recommendation.                For open
recommendations, we calculated the number of days the recommendation had
been classified as open.



Exhibit A. Objective, Scope, and Methodology
                                                                              13


To identify open OIG recommendations addressed to FRA, we searched the
Transportation Inspector General’s Reporting System. We included OIG
recommendations issued to FRA from 2004 through 2007. (The oldest open OIG
recommendation was issued to FRA on June 16, 2004.) We met with FRA
officials to identify the actions taken to address each of the open
recommendations. We also identified the actions needed to complete the response
to each recommendation and a target date for completion.

We conducted this performance audit in accordance with generally accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States, from November 2007 through April 2008. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Exhibit A. Objective, Scope, and Methodology
                                                                                                                                                            14



EXHIBIT B. OPEN CONGRESSIONAL RAIL SAFETY MANDATES ESTABLISHED FROM 1990 THROUGH 2007
     Short Title, Public
     Law Citation, and                                                                                                                          Actions Needed
#    Enactment Date             Section                   Open Congressional Mandate                               Actions Taken                    by FRA
1   Hazardous Materials    15               Due Date: The Railroad Transportation Study was             The Department’s FY 2008               Complete
    Transportation                          submitted to Congress on September 22, 2005, but            Appropriations Act included funds      additional
    Uniform Safety Act     Amended          after nearly 3 years this mandate has not been              that FRA plans to use to conduct       research.
    of 1990                Section 116(b)   completed.                                                  additional research to assess
    P.L. 101-615           of the           Within 24 months after the enactment of this section,       conditions for the transportation of   Prepare a NPRM
    November 16, 1990      Hazardous        taking into consideration the findings of the Railroad      spent nuclear fuel. FRA plans to       and final rule,
                           Materials        Transportation Study conducted pursuant to subsection       spend no more than about $100,000      based on research
                           Transportation   (a), the Secretary shall amend existing regulations as      to complete the necessary research     results.
                           Act (Title 49,   deemed appropriate to provide for the safe transportation   and expects to issue a notice of
                           U.S.C. App.      by rail of high-level radioactive waste and spent nuclear   proposed rulemaking (NPRM) in
                           1813)            fuel by various methods of rail transportation, including   FY 2009.
                                            by dedicated train.

                                            Note: In our October 20, 2005 report, we reported the
                                            Railroad Transportation Study as 14.8 years overdue. The
                                            mandate to amend existing regulations could not be
                                            undertaken until that study was completed.




       Exhibit B. Open Congressional Rail Safety Mandates Established From 1990 Through 2007
                                                                                                                                                                 15


     Short Title, Public
     Law Citation, and                                                                                                                              Actions Needed
#    Enactment Date             Section                   Open Congressional Mandate                                Actions Taken                       by FRA
2   Safe, Accountable,      Title IX,       Due Date: August 10, 2006, Overdue by 1.7 years.             The Volpe National Transportation        Complete and
    Flexible, Efficient     Section 9005    (a) (1) FRA shall validate a predictive model to quantify    Systems Center conducted research        issue final report.
    Transportation Equity                   the relevant dynamic forces acting on railroad tank cars     to assess the effects of various types
    Act: A Legacy for       Amended Title   under accident conditions within 1 year after the date of    of train accidents on tank cars. The
    Users                   49, U.S.C. by   enactment of this section.                                   first phase consisted of developing
    P.L. 109-59             adding new                                                                   a physics-based model to analyze
    August 10, 2005         Section 20155                                                                the kinematics of rail cars in a
                                                                                                         derailment. The second phase
                                                                                                         consisted of developing a valid
                                                                                                         dynamic structural analysis model.
                                                                                                         The third phase consisted of
                                                                                                         assessing the damage created by
                                                                                                         punctures and fractures. The Center
                                                                                                         is preparing a final report on all
                                                                                                         three phases of its research.
3   Safe, Accountable,      Title IX,       Due Date: Rulemaking was initiated on May 31, 2006           On April 1, 2008, FRA and                Issue a final rule.
    Flexible, Efficient     Section 9005    (which was 9 months before the February 10, 2007             PHMSA jointly issued a NPRM to
    Transportation Equity                   statutory deadline), but after nearly 2 years, it has not    require tank cars carrying poison
    Act: A Legacy for       Amended Title   been completed.                                              inhalation hazard products, such as
    Users                   49, U.S.C. by   (a)(2) Initiate a rulemaking to develop and implement        chlorine and anhydrous ammonia,
    P.L. 109-59             adding new      appropriate design standards for pressurized tank cars       to be equipped with puncture-
    August 10, 2005         Section 20155   within 18 months of the date of enactment of this section.   resistance protection strong enough
                                                                                                         to prevent penetration at speeds of
                                                                                                         25 miles per hour for side impacts
                                                                                                         and 30 miles per hour for head-on
                                                                                                         collisions. The comment period
                                                                                                         ended on June 2, 2008.




       Exhibit B. Open Congressional Rail Safety Mandates Established From 1990 Through 2007
                                                                                                                                                                     16


       Short Title, Public
       Law Citation, and                                                                                                                                Actions Needed
 #     Enactment Date             Section                     Open Congressional Mandate                                   Actions Taken                    by FRA
 4    Safe, Accountable,      Title IX,        Due Date: August 10, 2006, Overdue by 1.7 years.                In July 2007, the Southwest             Issue final
      Flexible, Efficient     Section 9005     (b) Not later than 1 year after the date of enactment of this   Research Institute (a subcontractor     research report.
      Transportation Equity                    section, FRA shall conduct a comprehensive analysis to          to FRA’s contractor—the Volpe
      Act: A Legacy for       Amended Title    determine the impact resistance of the steels in the shells     National Transportation Systems         Consult with
      Users                   49, U.S.C. by    of pressure tank cars constructed before 1989. Not later        Center) produced a draft final          Transport Canada
      P.L. 109-59             adding new       than 6 months after completing the analysis, FRA shall          research report on its work in          and private sector
      August 10, 2005         Section 20155    transmit a report, including recommendations for reducing       analyzing and testing pre-1989 tank     entities and
                                               any risk of catastrophic fracture and separation of such        car steels and provided it to FRA’s     develop risk
                                               cars, to the Senate Committee on Commerce, Science, and         Office of Research and                  reduction
                                               Transportation and the House Committee on                       Development for review and              recommendations.
                                               Transportation and Infrastructure.                              comments. FRA plans to return the
                                                                                                               draft report to Southwest for further   Prepare and
                                                                                                               revisions. The expected target date     transmit a report to
                                                                                                               for completing and publishing the       congressional
                                                                                                               final research report is                committees.
                                                                                                               September 2008.
 5    Consolidated            Division K,      Due Date for Schedule: March 25, 2008.                          On December 26, 2007, Congress          Provide the
      Appropriations Act,     Explanatory      Due Date for Report: June 23, 2009 (as agreed by                appropriated funds to carry out this    Appropriations
      2008, Division K,       Statement        Committee staff), instead of the original deadline of           mandate, which were apportioned         Committees with a
      Transportation,         submitted by     June 23, 2008.                                                  to FRA by OMB in February 2008.         final schedule for
      Housing and Urban       Mr. Obey,        The Explanatory Statement on the Department’s FY 2008           On March 13, 2008, FRA met with         the evaluation.
      Development, and        Chairman of      Appropriations Act stated that the amended bill included        staff of the Appropriations
      Related Agencies        the House        $200,000 to hire an independent consultant to evaluate          Committees. Subsequently, FRA           Submit a
      Appropriations Act,     Committee on     FRA’s use of penalties as an enforcement mechanism              provided a tentative evaluation         comprehensive
      2008                    Appropriations   instead of $300,000 as proposed by the Senate. The              schedule to the committees’ staff.      report to the
      P.L. 110-161                             Appropriations Committees directed FRA to report within                                                 Appropriations
      December 26, 2007                        90 days on the schedule of the evaluation and to provide        FRA’s Office of Chief Counsel and       Committees by
                                               the independent consultant’s comprehensive report within        Office of Safety plan to work           June 30, 2009, as
                                               180 days on the evaluation’s findings along with FRA’s          closely to ensure that a meaningful     agreed.
                                               comments on the evaluation.                                     contract would be executed for this
                                                                                                               evaluation.
OIG Analysis.




          Exhibit B. Open Congressional Rail Safety Mandates Established From 1990 Through 2007
                                                                                                                                                                 17



EXHIBIT C. ONGOING CONGRESSIONAL RAIL SAFETY MANDATES ESTABLISHED
           FROM 1990 THROUGH 2007
      Short Title, Public
      Law Citation, and                                                                                                                               Actions Needed
 #     Enactment Date             Section                  Ongoing Congressional Mandate                                 Actions Taken                     by FRA
1    Federal Railroad       213                The Secretary shall consult with the Secretary of Labor on     FRA and the Department of Labor        Continue to
     Safety Authorization                      a regular basis to ensure that all applicable laws affecting   (DOL) have overlapping                 consult with the
     Act of 1994            Amended            safe working conditions for railroad employees are             jurisdiction for occupational safety   DOL on a regular
     P.L. 103-440           subchapter II of   appropriately enforced to ensure a safe and productive         and health issues in the railroad      basis.
     November 2, 1994       Chapter 201 of     working environment for the railroad industry.                 industry. As a result, FRA
                            Title 49, U.S.C.                                                                  regularly consults with DOL’s
                            by adding new                                                                     Occupational Safety and Health
                            section 20149                                                                     Administration (OSHA) regarding
                                                                                                              workplace-related safety issues for
                                                                                                              railroad employees and on
                                                                                                              rulemakings that affect working
                                                                                                              conditions in the rail industry. For
                                                                                                              example, FRA’s accident reporting
                                                                                                              regulations were updated to
                                                                                                              conform to OSHA’s revised
                                                                                                              reporting requirements
                                                                                                              (68 FR 10108). FRA also consults
                                                                                                              with the DOL Mine Safety and
                                                                                                              Health Administration (MSHA)
                                                                                                              regarding coordinating FRA and
                                                                                                              MSHA’s safety programs when
                                                                                                              needed.




        Exhibit C. Ongoing Congressional Rail Safety Mandates Established From 1990 Through 2007
                                                                                                                                                                   18


      Short Title, Public
      Law Citation, and                                                                                                                               Actions Needed
 #     Enactment Date             Section                  Ongoing Congressional Mandate                                Actions Taken                      by FRA
2    Federal Railroad       219                Not later than 1 year after the date of enactment of this     FRA reviewed existing laws and          Periodically revise
     Safety Authorization                      Act the Secretary, in consultation with affected parties,     regulations regarding trespassing       model prevention
     Act of 1994            Amended            shall evaluate and review current local, State, and Federal   and vandalism, as part of its efforts   strategies and state
     P.L. 103-440           subchapter II of   laws regarding trespassing on railroad property and           to develop model state legislation.     legislation.
     November 2, 1994       Chapter 201 of     vandalism affecting railroad safety and develop model         FRA compiled these laws and
                            Title 49, U.S.C.   prevention strategies and enforcement laws to be used for     regulations, along with additional
                            by adding new      consideration of State and local legislatures and             laws regarding grade crossing
                            section 20151;     governmental entities. The first such evaluation and          safety, and published them in its
                            § 20151(a)         review shall be completed within 1 year after the date of     Compilation of State Laws and
                                               enactment of the Act. The Secretary shall revise such         Regulations Affecting Highway-Rail
                                               model prevention strategies and enforcement codes             Grade Crossings (Second Edition,
                                               periodically.                                                 August 1995). FRA has
                                                                                                             periodically reviewed pertinent
                                                                                                             state laws and revised its
                                                                                                             compilation publication (Third
                                                                                                             Edition, January 2000, and Fourth
                                                                                                             Edition, October 2002). At some
                                                                                                             time in 2008, FRA will issue a
                                                                                                             contract to update this publication.




        Exhibit C. Ongoing Congressional Rail Safety Mandates Established From 1990 Through 2007
                                                                                                                                                              19


      Short Title, Public
      Law Citation, and                                                                                                                           Actions Needed
 #     Enactment Date           Section               Ongoing Congressional Mandate                              Actions Taken                        by FRA
3    Debt Collection Act    Sec.           After making the initial adjustments required by this Act, On May 28, 2004, FRA published a           Continue to
     of 1996                31001(s)(1)    Federal agencies must review and adjust the minimum and final rule to adjust the minimum              periodically
     P.L. 104-134                          the maximum civil penalty per violation for regulations    and maximum civil penalty for              amend regulations.
     April 26, 1996         (28 U.S.C. §   they administer by amending the regulations periodically. violations of hazardous materials
                            2461 note)                                                                regulations and a final rule to adjust
                                                                                                      the minimum and aggravated
                                                                                                      maximum civil penalty for
                                                                                                      violations of all FRA rail safety
                                                                                                      regulations, respectively
                                                                                                      (69 FR 30590 and 69 FR 30591).

                                                                                                        On October 28, 2004, corrections to
                                                                                                        the existing regulations were
                                                                                                        published (69 FR 62817).

                                                                                                        On September 6, 2007, FRA
                                                                                                        published its final rule adjusting the
                                                                                                        ordinary maximum civil penalty for
                                                                                                        violations of all FRA rail safety
                                                                                                        regulations (72 FR 51194).




        Exhibit C. Ongoing Congressional Rail Safety Mandates Established From 1990 Through 2007
                                                                                                                                                                   20


       Short Title, Public
        Law Citation, and                                                                                                                             Actions Needed
  #      Enactment Date          Section                    Ongoing Congressional Mandate                                 Actions Taken                    by FRA
 4    Implementing           Section 1526 of   Development and Dissemination to States of Model               In September 2007, FRA sent a          Periodically revise
      Recommendations of     the 9/11          Legislation on “Scam Railroads.” Not later than                letter to state governors,             model state
      the 9/11 Commission    Commission        November 2, 2007, the Secretary of Transportation must         representatives of railroads, and      legislation.
      Act of 2007            Act amended       develop and make available to States model legislation to      railroad employees requesting
      P.L. 110-53            Title 49 U.S.C.   address the problem of entities that claim to be railroad      suggestions for a model state law to
      August 3, 2007         § 28101           carriers in order to establish and run a police force when     address the problem of “scam
                                               the entities do not in fact provide railroad transportation.   railroads”—organizations
                                               In developing the model State legislation, the 9/11            purporting to be railroads and
                                               Commission Act directed the Secretary to solicit the input     employing railroad police officers,
                                               of the States, railroad carriers, and railroad carrier         yet offering no means of railroad
                                               employees. The Act also directed the Secretary to review       transportation. FRA’s letter
                                               and, if necessary, revise such model State legislation         enclosed a copy of its 2006 model
                                               periodically.                                                  state legislation on the
                                                                                                              commissioning of railroad police
                                                                                                              and asked for ideas on how to
                                                                                                              improve it. By November 2, 2007,
                                                                                                              FRA reviewed the responses it had
                                                                                                              received, revised the model state
                                                                                                              law, and transmitted it and
                                                                                                              supporting documents to states.
OIG Analysis




         Exhibit C. Ongoing Congressional Rail Safety Mandates Established From 1990 Through 2007
                                                                                                                                                                  21




EXHIBIT D. OPEN NTSB RAIL SAFETY RECOMMENDATIONS FROM 1989 THROUGH 2007
      Issue                                                                                                                                         Actions Needed
 #     Date     Rec. No.                 Open NTSB Recommendation                          NTSB Classification and Actions Taken by FRA                 by FRA
 1   12/31/92   R-92-022   Open 15.3 years. NTSB recommended that FRA develop            Open - Acceptable Response. PHMSA published a            Complete the
                           and promulgate, with PHMSA, requirements for the              final rule in September 1995, to increase the            research projects
                           periodic testing and inspection of rail tank cars that help   frequency of required testing and inspections of rail    and disseminate
                           to ensure the detection of cracks before they propagate to    tank cars, based on accumulated and average              findings and tools.
                           critical length. These requirements are to establish          mileage, and to authorize adjustment of inspection
                           inspection intervals that are based on the defect size        intervals, based on damage-tolerance analysis. To
                           detectable by the inspection method used, the stress level,   address damage-tolerance, FRA sponsored two
                           and the crack propagation characteristics of the structural   research projects. In July 2007, FRA told NTSB it
                           component (requirements based on a damage-tolerance           would work to expedite completion of the research
                           approach).                                                    projects. A technical study providing a basic
                                                                                         damage-tolerance approach is under final review, and
                                                                                         additional studies are underway to support derivation
                                                                                         of the probability of detection curves and application
                                                                                         of these methods to rail tank car substructures.




        Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                             22


     Issue                                                                                                                                     Actions Needed
#     Date     Rec. No.                Open NTSB Recommendation                        NTSB Classification and Actions Taken by FRA                 by FRA
2   08/28/97   R-97-015   Open 10.7 years. NTSB recommended that FRA require         Open - Acceptable Response. On May 12, 1999,             Issue regulation
                          all passenger cars have either removable windows, kick     FRA issued Passenger Equipment Safety Standards          on removable
                          panels, or other suitable means for emergency exiting      for rail passenger service that addressed kick-out       panels in certain
                          through the interior and exterior passageway doors where   panels for trains traveling 125 to 150 miles per hour    interior doors.
                          the door could impede passengers exiting in an             (Tier II passenger equipment). However, these
                          emergency and take appropriate emergency measures to       regulations did not address kick-out panels for trains   Complete
                          ensure corrective action until these measures are          traveling at or less than 125 miles per hour (Tier I     research.
                          incorporated into minimum Passenger Car Safety             passenger equipment). In 1999, egress through doors
                          Standards.                                                 and windows was addressed for Tier I passenger
                                                                                     equipment and on February 1, 2008, FRA issued a
                                                                                     final rule that further addressed egress requirements.

                                                                                     The Railroad Safety Advisory Committee’s
                                                                                     Emergency Preparedness Task Force reviewed the
                                                                                     remaining safety issues and, through the Passenger
                                                                                     Safety Working Group, reported recommendations
                                                                                     for removable panels in certain interior doors for
                                                                                     Committee action on February 20, 2008. In addition,
                                                                                     FRA’s Small Business Innovative Research Program
                                                                                     continues to research the viability of integrating
                                                                                     removable panels/windows capable of meeting
                                                                                     Federal glazing standards into end-frame doors.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                               23


     Issue                                                                                                                                    Actions Needed
#     Date     Rec. No.                 Open NTSB Recommendation                       NTSB Classification and Actions Taken by FRA               by FRA
3   08/28/97   R-97-017   Open 10.7 years. NTSB recommended that FRA require         Open - Acceptable Response. FRA’s Passenger             Issue regulations.
                          all passenger cars contain reliable emergency lighting     Equipment Safety Standards for rail passenger
                          fixtures that are each fitted with a self-contained        service, which were published in the Federal Register
                          independent power source and incorporate the               on May 12, 1999, addressed emergency lighting for
                          requirements into minimum Passenger Car Safety             passenger cars ordered on or after
                          Standards.                                                 September 8, 2000, or those placed into service for
                                                                                     the first time on or after September 9, 2002.
                                                                                     Subsequently, FRA worked with the American
                                                                                     Public Transportation Association to develop
                                                                                     industry standards to improve emergency lighting
                                                                                     pathway markings, including survivability of the
                                                                                     systems. On February 20, 2008, the Passenger
                                                                                     Safety Working Group presented proposed rule
                                                                                     language to the Railroad Safety Advisory Committee
                                                                                     that would incorporate the new standards by
                                                                                     reference.
4   09/16/98   R-98-056   Open 9.6 years. NTSB recommended that FRA include          Open - Acceptable Response. FRA’s Passenger             Issue revised
                          in the Passenger Car Safety Standards a requirement for    Equipment Safety Standards for rail passenger           regulations, as
                          positive seat securement systems to prevent the            service, which were published in the Federal Register   necessary.
                          disengagement and undesired rotation of seats in all new   on May 12, 1999, addressed seat securement in
                          passenger cars purchased after January 1, 2000, and        passenger cars, but did not address rotating-seat
                          require the incorporation of such a system into existing   issues. Amtrak had previously improved its seat-
                          passenger cars when they are scheduled for overhaul.       locking mechanism, but the rotation of some seats
                                                                                     continues to occur. FRA's Office of Research and
                                                                                     Development plans to help to develop alternative
                                                                                     seat-locking designs and test prototype seat-
                                                                                     securement systems in cooperation with Amtrak for
                                                                                     inclusion in future regulations. FRA and NTSB
                                                                                     accident investigations have not established a nexus
                                                                                     between seat rotation and passenger injuries.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                             24


     Issue                                                                                                                                    Actions Needed
#     Date     Rec. No.                 Open NTSB Recommendation                        NTSB Classification and Actions Taken by FRA              by FRA
5   01/13/00   R-00-001   Open 8.3 years. NTSB recommended that FRA                    Open - Acceptable Response. In 2002, NTSB             Issue regulations.
                          establish, with assistance from experts on the effects of    officials met with members of FRA's Railroad Safety
                          pharmacological agents on human performance and              Advisory Committee to discuss concerns with NTSB
                          alertness, procedures or criteria by which train operating   recommendations R-00-001 through R-00-004. At
                          crewmembers who medically require substances not on          that meeting, NTSB clarified the intent of
                          the Department's list of approved medications may be         recommendations R-00-001 through R-00-004. In
                          allowed, when appropriate, to use those medications          2007, the Railroad Safety Advisory Committee’s
                          when performing their duties.                                Medical Standards Working Group was established
                                                                                       to address these recommendations and other fitness-
                                                                                       for-duty concerns. The Working Group continues to
                                                                                       develop recommendations for a proposed rule for
                                                                                       FRA to issue in 2009.
6   01/13/00   R-00-002   Open 8.3 years. NTSB recommended that FRA develop,           Open - Acceptable Response. In 2002, NTSB             Issue regulations.
                          then periodically publish, an easy-to-understand source      officials met with members of FRA's Railroad Safety
                          of information for train operating crewmembers on the        Advisory Committee to discuss concerns with NTSB
                          hazards of using specific medications when performing        recommendations R-00-001 through R-00-004. At
                          their duties.                                                that meeting, NTSB clarified the intent of
                                                                                       recommendations R-00-001 through R-00-004. In
                                                                                       2007, the Railroad Safety Advisory Committee’s
                                                                                       Medical Standards Working Group was established
                                                                                       to address these recommendations and other fitness-
                                                                                       for-duty concerns. The Working Group continues to
                                                                                       develop recommendations for a proposed rule for
                                                                                       FRA to issue in 2009.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                               25


     Issue                                                                                                                                      Actions Needed
#     Date     Rec. No.                Open NTSB Recommendation                          NTSB Classification and Actions Taken by FRA               by FRA
7   01/13/00   R-00-003   Open 8.3 years. NTSB recommended that FRA establish           Open - Acceptable Response. In 2002, NTSB              Issue regulations.
                          and implement an educational program targeting train          officials met with members of FRA's Railroad Safety
                          operating crewmembers that, at a minimum, ensures that        Advisory Committee to discuss concerns with NTSB
                          all crewmembers are aware of the source of information        recommendations R-00-001 through R-00-004. At
                          described in NTSB recommendation R-00-002 regarding           that meeting, NTSB clarified the intent of
                          the hazards of using specific medications when                recommendations R-00-001 through R-00-004. In
                          performing their duties.                                      2007, the Railroad Safety Advisory Committee’s
                                                                                        Medical Standards Working Group was established
                                                                                        to address these recommendations and other fitness-
                                                                                        for-duty concerns. The Working Group continues to
                                                                                        develop recommendations for a proposed rule for
                                                                                        FRA to issue in 2009.
8   01/13/00   R-00-004   Open 8.3 years. NTSB recommended that FRA                     Open - Acceptable Response. In 2002, NTSB              Issue regulations.
                          establish, in coordination with the Department, the           officials met with members of FRA's Railroad Safety
                          Federal Motor Carrier Safety Administration, the Federal      Advisory Committee to discuss concerns with NTSB
                          Transit Administration, and the U.S. Coast Guard,             recommendations R-00-001 through R-00-004. At
                          comprehensive toxicological testing requirements for an       that meeting, NTSB clarified the intent of
                          appropriate sample of fatal highway, railroad, transit, and   recommendations R-00-001 through R-00-004. FRA
                          marine accidents to ensure the identification of the role     was already testing for benzodiazepines and
                          played by common prescription and over-the-counter            barbiturates, in addition to the “SAMSA 5” drug
                          medications. FRA was to review and analyze the results        groups and alcohol in its post-accident program.
                          of such testing at intervals not to exceed every 5 years.     FRA also conducted blind testing of extant archive
                                                                                        samples to determine the prevalence of other-drug
                                                                                        use in the population of accident-involved
                                                                                        employees. FRA presented those results to NTSB
                                                                                        and the Railroad Safety Advisory Committee’s
                                                                                        Medical Standards Working Group in support of the
                                                                                        need to include therapeutic drug use management in
                                                                                        the forthcoming medical standards NPRM.

                                                                                        FRA plans to issue a NPRM in 2009 to amend 49
                                                                                        CFR Part 219 to routinely authorize testing of post-
                                                                                        accident specimens for drugs other than controlled
                                                                                        substances.



       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                26


     Issue                                                                                                                                        Actions Needed
#     Date     Rec. No.                 Open NTSB Recommendation                         NTSB Classification and Actions Taken by FRA                 by FRA
9   03/12/01   R-01-002   Open 7.1 years. NTSB recommended that FRA evaluate,           Open - Acceptable Response. The Association of          Evaluate the
                          with the assistance of PHMSA, the Association of              American Railroads task force collected over 5,000      results of the
                          American Railroads, and the Railway Progress Institute,       inspection reports on pressure relief devices.          review and work
                          the deterioration of pressure relief devices through          PHMSA plans to consider regulatory changes once         with PHMSA to
                          normal service and then develop inspection criteria to        the Tank Car Committee completes its review of the      issue regulations,
                          ensure that the pressure relief devices remain functional     data.                                                   as necessary.
                          between regular inspection intervals. FRA was to
                          incorporate these inspection criteria into the Department's
                          Hazardous Materials Regulations.
10 06/12/01    R-01-006   Open 6.9 years. NTSB recommended that FRA facilitate          Open - Acceptable Response. FRA encouraged the          Continue to
                          actions necessary for the development and                     rapid deployment of positive train control systems      support the
                          implementation of positive train control systems on main      within the rail industry. On March 7, 2005, FRA         implementation of
                          line tracks, establishing priority requirements for high-     issued a final rule that adopted a performance-based    positive train
                          risk corridors such as those where commuter and               approach to the review and qualification of new train   control systems.
                          intercity passenger railroads operate.                        control technology. FRA approved the Railroad
                                                                                        Safety Program Plans that the major railroads were
                                                                                        using to develop positive train control systems and
                                                                                        the Burlington Northern Santa Fe Railway’s
                                                                                        Electronic Train Management System Product Safety
                                                                                        Plan (configuration I in December 2006). In
                                                                                        addition, FRA closely monitors the process and
                                                                                        progress of the implementation of these systems and
                                                                                        provides support to the rail industry, as needed.
11 09/24/01    R-01-017   Open 6.6 years. NTSB recommended that FRA modify              Open - Acceptable Response. In August 2001, an          Issue regulations.
                          Title 49 of the Code of Federal Regulations, Section          extensive revision of Title 49 of the Code of Federal
                          219.201(b), as necessary to ensure that the exemption         Regulations, Section 219.201(b), concluded shortly
                          from mandatory post-accident drug and alcohol testing         before NTSB issued this recommendation. However,
                          for those involved in highway-rail grade crossing             FRA agreed that the exemption portion of its alcohol
                          accidents does not apply to any railroad signal,              and drug testing regulation should be narrowed from
                          maintenance, and other employees whose actions at or          its present universal exclusion of all railroad
                          near a grade crossing involved in an accident may have        employees from post-accident toxicological testing
                          contributed to the occurrence or severity of the accident.    when highway-rail grade crossing accidents occur.
                                                                                        To address this issue, FRA plans to further revise
                                                                                        Section 219.201(b) in 2009.



       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                              27


    Issue                                                                                                                                      Actions Needed
#    Date     Rec. No.                 Open NTSB Recommendation                          NTSB Classification and Actions Taken by FRA              by FRA
12 02/15/02   R-02-001   Open 6.2 years. NTSB recommended that FRA, for all             Open - Acceptable Response. FRA has no regulation     Issue regulations,
                         railroads that install new or upgraded grade crossing          requiring the railroads install event recorders in    as necessary.
                         warning systems that include crossing gates and that are       highway-rail grade crossing signal systems. FRA is
                         equipped with event recorders, require that the                contemplating opening Title 49 of the Code of
                         information captured by event recorders include the            Federal Regulations, Part 234 (Grade Crossing
                         position of the deployed gates.                                Signal System Safety), for possible rulemaking, no
                                                                                        later than December 2008.
13 11/27/02   R-02-024   Open 5.4 years. NTSB recommended that FRA develop              Open - Acceptable Response. On                        Issue regulations.
                         a standard medical examination form that includes              September 21, 2006, FRA tasked its Railroad Safety
                         questions regarding sleep problems and require that the        Advisory Committee with establishing standards and
                         form be used, pursuant to Title 49 of the Code of Federal      procedures for determining the medical fitness for
                         Regulation, Part 240, to determine the medical fitness of      duty of personnel engaged in safety-critical
                         locomotive engineers; the form should also be available        functions. The Medical Standards Working Group is
                         for use to determine the medical fitness of other              preparing a standard form, including sleep disorder
                         employees in safety-sensitive positions.                       questions.
14 11/27/02   R-02-025   Open 5.4 years. NTSB recommended that FRA require              Open - Acceptable Response. On                        Issue regulations.
                         that any medical condition that could incapacitate, or         September 21, 2006, FRA tasked its Railroad Safety
                         seriously impair the performance of, an employee in a          Advisory Committee with establishing standards and
                         safety-sensitive position be reported to the railroad in a     procedures for determining the medical fitness for
                         timely manner.                                                 duty of personnel engaged in safety-critical
                                                                                        functions. A proposed rule is being developed to
                                                                                        specifically address these concerns.
15 11/27/02   R-02-026   Open 5.4 years. NTSB recommended that FRA require              Open - Acceptable Response. On                        Issue regulations.
                         that, when a railroad becomes aware that an employee in        September 21, 2006, FRA tasked its Railroad Safety
                         a safety-sensitive position has a potentially incapacitating   Advisory Committee with establishing standards and
                         or performance-impairing medical condition, the railroad       procedures for determining the medical fitness for
                         prohibit that employee from performing any safety-             duty of personnel engaged in safety-critical
                         sensitive duties until the railroad's designated physician     functions. FRA will issue regulations based on the
                         determines that the employee can continue to work safely       work completed by the Railroad Safety Advisory
                         in a safety-sensitive position.                                Committee.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                              28


    Issue                                                                                                                                      Actions Needed
#    Date     Rec. No.                Open NTSB Recommendation                         NTSB Classification and Actions Taken by FRA                 by FRA
16 08/15/03   R-03-012   Open 4.7 years. NTSB recommended that FRA, in               Open - Acceptable Response. FRA entered into an          Respond to NTSB
                         cooperation with the Transportation Security                agreement with the Transportation Security               with the results of
                         Administration, develop and implement an accurate           Administration and Amtrak to fund a study through        the report.
                         passenger and crew accountability system for all long-      the Volpe National Transportation Systems Center to
                         distance, overnight, and reserved passenger trains that     examine what available technologies exist to develop
                         will immediately provide an accurate count and identity     an accurate passenger train manifest. In
                         of the people on board the train in case of emergency at    December 2005, FRA published a report that
                         any time during the trip.                                   concluded an improved passenger manifest was
                                                                                     possible, but the costs would be very substantial and
                                                                                     benefits would be questionable.
17 11/06/03   R-03-021   Open 4.5 years. NTSB recommended that FRA revise            Open - Acceptable Response. In 2003, the                 Request NTSB to
                         the language of Title 49 of the Code of Federal             Emergency Preparedness Task Force (within FRA's          reclassify as
                         Regulations, Section 238.113(a)(1), to reflect that         Railroad Safety Advisory Committee) was formed to        “Closed—
                         appropriate exterior instructional signage describing the   address this recommendation and other high-priority      Acceptable
                         emergency removal procedure be required at emergency        topics related to systems, procedures, and equipment.    Action.”
                         windows on all levels of a multiple-level passenger rail    On August 24, 2006, a NPRM was issued to address
                         car.                                                        Passenger Train Emergency Systems, including
                                                                                     evacuation systems. The final rule was published on
                                                                                     February 1, 2008.
18 03/15/04   R-04-001   Open 4.1 years. NTSB recommended that FRA require           Open - Acceptable Response. On October 11, 2006,         Develop and issue
                         all railroads with continuous welded rail track include     FRA published a regulation in the Federal Register       a regulation, when
                         procedures (in the programs that are filed with FRA) that   that required railroads establish a program for the      suitable
                         prescribe on-the-ground visual inspections and non-         periodic visual inspection of joint bars in continuous   technology
                         destructive testing techniques for identifying cracks in    welded rail track by January 1, 2007. However, the       becomes available.
                         rail joint bars before they grow to critical size.          regulation did not require non-destructive testing of
                                                                                     joint bars on a periodic basis. FRA stated that there
                                                                                     was insufficient engineering data to establish the
                                                                                     effectiveness of non-destructive testing techniques as
                                                                                     applied to joint bars in the service environment.
                                                                                     FRA and the Association of American Railroads
                                                                                     (through the Transportation Technology Center, Inc.)
                                                                                     are working on non-destructive testing techniques
                                                                                     that may be useful in the future.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                     29


    Issue                                                                                                                                         Actions Needed
#    Date     Rec. No.                Open NTSB Recommendation                            NTSB Classification and Actions Taken by FRA                by FRA
19 03/15/04   R-04-004   Open 4.1 years. NTSB recommended that FRA conduct              Open - Acceptable Response. In 2005, SAFETEA-            Complete
                         a comprehensive analysis to determine the impact               LU required FRA to conduct a comprehensive               analysis.
                         resistance of the steels in the shells of pressure tank cars   analysis to determine the impact resistance of the
                         constructed before 1989. At a minimum, the safety              steels in the shells of pressure tank cars constructed   Issue regulations,
                         analysis should include the results of dynamic fracture        before 1989. To address this SAFETEA-LU                  as necessary.
                         toughness tests and/or the results of nondestructive           requirement and NTSB’s recommendation, the
                         testing techniques that provide information on material        Southwest Research Institute is preparing a report for
                         ductility and fracture toughness. The data should come         FRA on testing methods to address the impact
                         from samples of steel from the tank shells from original       resistance of tank shells. A task force is expected to
                         manufacturing or from a statistically representative           begin steel testing once the methods are evaluated.
                         sampling of the shells of the pre-1989 pressure tank car       NTSB did not agree with the task force's decision to
                         fleet.                                                         gather steel samples from only pre-1989 tank cars as
                                                                                        they are scrapped and not from tank cars remaining
                                                                                        in service.
20 03/15/04   R-04-006   Open 4.1 years. NTSB recommended that FRA validate             Open - Acceptable Response. FRA sponsors                 Complete and
                         the predictive model FRA is developing to quantify the         ongoing programs to evaluate train forces associated     publish the
                         maximum dynamic forces acting on railroad tank cars            with derailments. On March 30, 2007, FRA reported        research report.
                         under accident conditions.                                     its research findings at a public meeting on tank car
                                                                                        safety. The Volpe National Transportation Systems        Issue final rule.
                                                                                        Center prepared a formal report on the research
                                                                                        findings, which were incorporated into a NPRM that
                                                                                        was jointly issued by PHMSA and FRA on
                                                                                        April 1, 2008. This NPRM was issued to improve
                                                                                        the crashworthiness protection of rail tank cars
                                                                                        designed to transport poison inhalation hazard
                                                                                        products.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                  30


    Issue                                                                                                                                       Actions Needed
#    Date     Rec. No.                 Open NTSB Recommendation                        NTSB Classification and Actions Taken by FRA                 by FRA
21 03/15/04   R-04-007   Open 4.1 years. NTSB recommended that FRA develop            Open - Acceptable Response. FRA concluded that           Issue final rule.
                         and implement Tank Car Design-Specific Fracture              the results of the research reported under R-04-004
                         Toughness Standards, such as a minimum average               did not support taking specific actions related to
                         Charpy value, for steels and other materials of              testing for tank car steel toughness. However, the
                         construction for pressure tank cars used for the             NPRM that was jointly issued by PHMSA and FRA
                         transportation of the Department’s Class 2 hazardous         on April 1, 2008, addressed concerns regarding the
                         materials, including those in "low temperature" service.     use of non-normalized steels and focused on
                         The performance criteria must apply to the material          improving the crashworthiness protection of rail tank
                         orientation with the minimum impact resistance and take      cars designed to transport poison inhalation hazard
                         into account the entire range of operating temperatures of   products.
                         the tank car.
22 02/03/05   R-05-002   Open 3.2 years. NTSB recommended that FRA require            Open - Acceptable Response. FRA is preparing a           Complete
                         in Title 49 of the Code of Federal Regulations, Part 225     NPRM to revise Title 49 of the Code of Federal           revisions to the
                         (Railroad Accidents/Incident: Reports Classification, and    Regulations, Part 225, which will include revisions to   guide.
                         Investigations) that derailments caused by rail cracks       Appendix C of the train accident cause codes in
                         originating from bond wire attachments be reported with      FRA’s Guide for Preparing Accident/Incident              Issue regulation.
                         a specific cause code and that information on the            Reports.
                         methods and locations of those wire attachments be
                         provided in the accident narrative.
23 08/25/05   R-05-005   Open 2.7 years. NTSB recommended that FRA                    Open - Acceptable Response. In April 2007, FRA           Respond to NTSB
                         emphasize to its track inspectors the importance of          revised its Track Safety Standards Compliance            to update the
                         enforcing a railroad's continuous welded rail program as     Manual by including comprehensive instructions to        actions taken.
                         a part of the Federal Track Safety Standards and verify      inspectors on how to effectively apply the standards
                         that inspectors are documenting noncompliance with the       for continuous welded rail. On February 20, 2008,        Issue regulations,
                         railroad’s program.                                          the Railroad Safety Advisory Committee met and           as necessary.
                                                                                      discussed proposed regulatory changes that would
                                                                                      further clarify FRA’s track safety standards.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                  31


    Issue                                                                                                                                       Actions Needed
#    Date     Rec. No.                Open NTSB Recommendation                       NTSB Classification and Actions Taken by FRA                   by FRA
24 11/23/05   R-05-009   Open 2.4 years. NTSB recommended that FRA develop          Open - Acceptable Response. FRA agreed that                Develop and issue
                         guidelines for locomotive engineer simulator training      developing guidelines for locomotive engineer skill        guidelines.
                         programs that go beyond developing basic skills and        development that would contribute to good
                         teach strategies for effectively managing multiple         situational awareness was worthy of consideration,
                         concurrent tasks and atypical situations.                  both as a further contribution to the quality of
                                                                                    existing training programs and as a means of
                                                                                    benchmarking the various programs. However, FRA
                                                                                    has not identified the resources needed to initiate this
                                                                                    action and does not plan to undertake it until such
                                                                                    resources are identified.
25 12/12/05   R-05-017   Open 2.4 years. NTSB recommended that FRA                  Open - Acceptable Response. FRA continues to               Complete the
                         determine the most effective methods of providing          conduct a study to address all aspects of this             study.
                         emergency escape breathing apparatuses for all             recommendation. The study includes the types of
                         crewmembers on freight trains carrying hazardous           emergency escape breathing apparatuses available,          Issue regulations,
                         materials that would pose an inhalation hazard in the      how the equipment should be used, what training            as necessary.
                         event of unintentional release and require railroads to    would be required for its use, and the cost. This
                         provide these breathing apparatus to their crewmembers     study was expected to be completed in March 2008;
                         along with appropriate training.                           however, in February 2008, FRA required the study’s
                                                                                    contractor to make significant revisions and provide
                                                                                    a draft final report for review in the near future. FRA
                                                                                    assigned staff to this study, but no report due date has
                                                                                    been specified.
26 06/07/06   R-06-007   Open 1.9 years. NTSB recommended that FRA require          Open - Acceptable Response. FRA stated that it             Complete an
                         railroads to implement for all power-assisted switch       would conduct an internal review of the railroads'         internal review.
                         machines, regardless of location, a formal commissioning   usage and practices concerning power-assisted
                         procedure and a formal maintenance program that            switch machines in other than signaled territory and       Issue regulations,
                         includes records of inspections, tests, maintenance, and   determine whether regulations are needed.                  as necessary.
                         repairs.
27 07/20/06   R-06-014   Open 1.8 years. NTSB recommended that FRA require          Open - Acceptable Response. FRA stated that it             Continue to seek
                         railroads to use scientifically-based principles when      lacked the statutory authority to implement NTSB’s         statutory
                         assigning work schedules for train crewmembers, which      recommendation. In February 2007, the Secretary            authority.
                         consider factors that impact sleep needs, to reduce the    transmitted to Congress the Administration’s rail
                         effects of fatigue.                                        safety reauthorization bill, which included language
                                                                                    to confer the authority.



       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                    32


    Issue                                                                                                                                          Actions Needed
#    Date     Rec. No.                Open NTSB Recommendation                            NTSB Classification and Actions Taken by FRA                  by FRA
28 07/20/06   R-06-015   Open 1.8 years. NTSB recommended that FRA establish            Open - Acceptable Response. FRA stated that it            Continue to seek
                         requirements that limit train crewmember limbo time to         lacked the statutory authority to implement NTSB’s        statutory
                         address fatigue.                                               recommendation. In February 2007, the Secretary           authority.
                                                                                        transmitted to Congress the Administration’s rail
                                                                                        safety reauthorization bill, which included language
                                                                                        to confer the authority.
29 10/25/06   R-06-019   Open 1.5 years. NTSB recommended that FRA extend               Open - Acceptable Response. In April 2006, FRA            Issue regulations.
                         its Track Safety Standards to all classes of track having      created a task force to study the safety aspects of
                         concrete crossties. The Track Safety Standards should          concrete crossties. The task force's purpose was to
                         address, at a minimum, the following: limits for rail seat     determine a recommended course of action for a
                         abrasion, concrete crosstie pad wear limits, missing or        concrete crosstie safety advisory. Findings from that
                         broken rail fasteners, loss of appropriate toeload pressure,   initial effort were transferred to the Railroad Safety
                         improper fastener configurations, and excessive lateral        Advisory Committee and its Track Safety Standards
                         rail movement.                                                 Working Group continues to examine this issue with
                                                                                        a view towards preparing a proposed rule.
30 02/03/05   R-05-001   Open 3.2 years. NTSB recommended that FRA require              Open - Acceptable Alternative Response. FRA               Send formal
                         in Title 49 of the Code of Federal Regulations, Part 213       agreed that it was important to track rail cracks         notification to
                         (Track Safety Standards), that rail cracks originating         originating from bond wire attachments in the             NTSB.
                         from bond wire attachments be identified as rail defects       interest of prevention and for identifying the scope of
                         and that information be collected on the methods and           the problem. However, FRA suggested an alternate
                         locations of those attachments.                                approach to NTSB’s recommendation and to the
                                                                                        collection of information on the methods and
                                                                                        locations of bond wire attachments. FRA added a
                                                                                        new defect code to its Railroad Inspection System
                                                                                        Personal Computer. In April 2007, FRA also revised
                                                                                        its Track Safety Standards Compliance Manual to
                                                                                        provide guidance to field inspectors concerning rail
                                                                                        bond welds. In addition, the Railroad Safety
                                                                                        Advisory Committee has agreed to review bond wire
                                                                                        attachment methods.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                               33


    Issue                                                                                                                                       Actions Needed
#    Date     Rec. No.                 Open NTSB Recommendation                          NTSB Classification and Actions Taken by FRA               by FRA
31 12/12/05   R-05-014   Open 2.4 years. NTSB recommended that FRA require             Open - Acceptable Alternative Response. FRA             Send NTSB an
                         that, along main lines in non-signaled territory, railroads   strongly supported NTSB’s interest in reducing the      update on actions.
                         install an automatically activated device, independent of     risk of train accidents caused by an improperly lined
                         the switch banner that will, visually or electronically,      hand-operated switch, but suggested an alternate        Identify plans to
                         compellingly capture the attention of employees involved      approach. FRA initiated a joint project with the        promote similar
                         with switch operations and clearly convey the status of       Burlington Northern Santa Fe Railway Company to         technology to the
                         the switch both in daylight and in darkness.                  implement the Switch Position Monitoring System,        rail industry.
                                                                                       which detects an improper switch point alignment
                                                                                       and conveys information automatically to the
                                                                                       dispatcher. FRA is aggressively encouraging
                                                                                       railroads to deploy similar technology. Norfolk
                                                                                       Southern Railway Company and CSX
                                                                                       Transportation, Inc. are implementing similar
                                                                                       technology.
32 12/21/06   R-06-024   Open 1.4 years. NTSB recommended that FRA                     Open - Await Response. FRA concluded that the           FRA is awaiting a
                         immediately require all rail passenger car seat backs be      intent of NTSB’s recommendation had been met,           response from
                         secured to the seat assembly.                                 based on its review of the requirements of existing     NTSB.
                                                                                       safety regulations. On January 30, 2008, FRA sent a
                                                                                       letter to the American Public Transportation
                                                                                       Association to advise the commuter railroads that
                                                                                       passenger seat backs must be secured in accordance
                                                                                       with the standards. In March 2008, FRA sent a letter
                                                                                       to NTSB requesting this recommendation be
                                                                                       reclassified as Closed Acceptable Action. FRA is
                                                                                       awaiting a response from NTSB.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                              34


    Issue                                                                                                                                       Actions Needed
#    Date     Rec. No.                Open NTSB Recommendation                          NTSB Classification and Actions Taken by FRA                by FRA
33 12/21/06   R-06-025   Open 1.4 years. NTSB recommended that FRA revise              Open - Await Response. FRA concluded that the           FRA is awaiting a
                         the language in Title 49 of the Code of Federal               intent of NTSB’s recommendation had been met,           response from
                         Regulations, Section 238.233, to define seat to include all   based on its review of the requirements of existing     NTSB.
                         components of the seat assembly, such as seat cushions        safety regulations. On January 30, 2008, FRA sent a
                         and seat backs, that could become dislodged when              letter to the American Public Transportation
                         subjected to accelerations specified in that section.         Association to advise the commuter railroads that
                                                                                       passenger seat backs must be secured in accordance
                                                                                       with the standards. In March 2008, FRA sent a letter
                                                                                       to NTSB requesting this recommendation be
                                                                                       reclassified as Closed Acceptable Action. FRA is
                                                                                       awaiting a response from NTSB.
34 12/21/06   R-06-026   Open 1.4 years. NTSB recommended that FRA require             Open - Await Response. FRA stated that current          FRA is awaiting a
                         all rail passenger car seat assemblies be dynamically         requirements of Title 49 of the Code of Federal         response from
                         tested to withstand the accelerations specified in Title 49   Regulations, Section 238.233 are consistent with this   NTSB.
                         of the Code of Federal Regulations, Section 238.233, and      recommendation. In March 2008, FRA sent a letter
                         require both upward and downward vertical acceleration        to NTSB requesting this recommendation be
                         tests.                                                        reclassified as Closed Acceptable Action. FRA is
                                                                                       awaiting a response from NTSB.
35 12/21/06   R-06-027   Open 1.4 years. NTSB recommended that FRA establish           Open - Await Response. FRA stated that                  FRA is awaiting a
                         crashworthiness standards for passenger car body floor        establishing crashworthiness standards for the floor    response from
                         structure systems.                                            structure would not provide any increase in collision   NTSB.
                                                                                       safety. In March 2008, FRA sent a letter to NTSB
                                                                                       requesting this recommendation be reclassified as
                                                                                       Closed Acceptable Action. FRA is awaiting a
                                                                                       response from NTSB.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                              35


    Issue                                                                                                                                      Actions Needed
#    Date     Rec. No.                 Open NTSB Recommendation                         NTSB Classification and Actions Taken by FRA               by FRA
36 04/25/07   R-07-001   Open 1.0 years. NTSB recommended that FRA require             Open - Await Response. In October 2007, FRA sent       Issue regulations,
                         railroads ensure that the lead locomotives used to operate    a letter to NTSB requesting this recommendation be     as necessary.
                         trains on tracks not equipped with a positive train control   reclassified as Open Acceptable Action. FRA is
                         system are equipped with an alerter.                          awaiting a response from NTSB.

                                                                                       FRA’s Railroad Safety Advisory Committee’s
                                                                                       Locomotive Standards Working Group reached a
                                                                                       tentative agreement to require alerters on all new
                                                                                       locomotives used in road service and a
                                                                                       recommendation for retrofit is being considered.
                                                                                       Further, the Association of American Railroads
                                                                                       adopted an alerter standard for freight locomotives,
                                                                                       after consulting with the Working Group.
37 04/25/07   R-07-002   Open 1.0 years. NTSB recommended that FRA assist              Open - Await Response. In October 2007, FRA sent       Issue regulations,
                         PHMSA in developing regulations to require that               a letter to NTSB requesting this recommendation be     as necessary.
                         railroads immediately provide to emergency responders         reclassified as Open Acceptable Action. FRA is
                         accurate, real-time information regarding the identity and    awaiting a response from NTSB.
                         location of all hazardous materials on a train.
                                                                                       FRA regulations require that information on the
                                                                                       identity and location of hazardous materials be
                                                                                       maintained for the benefit of emergency responders.
                                                                                       However, (with FRA’s encouragement), the
                                                                                       Association of American Railroads issued a circular
                                                                                       offering to provide hazardous materials information
                                                                                       on the top 25 commodities to local emergency
                                                                                       response organizations to assist in training and
                                                                                       preparing for emergencies. In addition, (with FRA’s
                                                                                       encouragement), CSX Transportation, Inc. and
                                                                                       Chemtrec established a real-time information process
                                                                                       that provides car content and train consist
                                                                                       information on a “one-call” basis. FRA continues to
                                                                                       evaluate this process to determine if additional
                                                                                       regulations are necessary.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                  36


    Issue                                                                                                                                         Actions Needed
#    Date     Rec. No.                 Open NTSB Recommendation                         NTSB Classification and Actions Taken by FRA                  by FRA
38 04/25/07   R-07-003   Open 1.0 years. NTSB recommended that FRA require             Open - Await Response. In October 2007, FRA sent          Issue regulations,
                         the installation of a crash- and fire-protected locomotive    a letter to NTSB requesting this recommendation be        as necessary.
                         cab voice recorder, or a combined voice and video             reclassified as Open Acceptable Action. FRA is
                         recorder, (for the exclusive use in accident investigations   awaiting a response from NTSB.
                         and with appropriate limitations on the public release of
                         such recordings) in all controlling locomotive cabs and       FRA’s Railroad Safety Advisory Committee
                         cab car operating compartments. The recorder should           continues to identify options for addressing NTSB’s
                         have a minimum 2-hour continuous recording capability,        safety recommendation.
                         microphones capable of capturing crewmembers' voices
                         and sounds generated within the cab, and a channel to
                         record all radio conversations to and from crewmembers.
39 07/14/89   R-89-048   Open 18.8 years. NTSB recommended that FRA assist             Open - Unacceptable Response. FRA, PHMSA, and             Send NTSB an
                         and cooperate with PHMSA in amending Title 49 of the          the rail industry are continuing to work together to      update on the
                         Code of Federal Regulations, Part 179, to require that        implement NTSB’s recommendation. FRA is                   actions taken.
                         closure fittings on tank cars carrying hazardous materials    working with the Association of American Railroads’
                         be designed to maintain their integrity in accidents that     Tank Car Committee to assist PHMSA in developing          Issue regulations.
                         are typically survivable by the rail tank car.                new requirements—top fitting protection on all
                                                                                       hazardous materials tank cars—for cars built after
                                                                                       December 31, 2008. FRA continues to research
                                                                                       alternative top fitting protection strategies.
40 03/21/02   R-02-005   Open 6.1 years. NTSB recommended that FRA require             Open - Unacceptable Response. On March 8, 2006,           Issue regulations.
                         railroads to conduct ultrasonic or other appropriate          FRA issued Safety Advisory 2006-02 in direct
                         inspections to ensure that rail used to replace defective     response to NTSB’s recommendation. The purpose
                         segments of existing rail is free from internal defects.      of this advisory was to reduce the number of rail
                                                                                       defects that occur when second-hand rail is used and
                                                                                       recommend practices for testing, classifying, and
                                                                                       reusing second-hand rail. However, NTSB would
                                                                                       like FRA’s advisory revised to recommend all
                                                                                       railroads conduct ultrasonic or other appropriate
                                                                                       inspections to ensure that all rail used as replacement
                                                                                       rail is tested and determined to be free from internal
                                                                                       defects. FRA’s Railroad Safety Advisory Committee
                                                                                       continues to develop a regulatory proposal to address
                                                                                       this recommendation.



       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                       37


    Issue                                                                                                                                           Actions Needed
#    Date     Rec. No.                Open NTSB Recommendation                          NTSB Classification and Actions Taken by FRA                     by FRA
41 06/13/03   R-03-001   Open 4.9 years. NTSB recommended that FRA                     Open - Unacceptable Response. FRA’s Railroad                Respond to NTSB
                         promulgate new or amended regulations that will control       Safety Advisory Committee developed a draft best            with the results of
                         the use of cellular telephones and similar wireless           practices operating rule for the industry, which was        all actions taken.
                         communication devices by railroad operating employees         approved for voluntary adoption by all major freight
                         while on duty so that such use does not affect operational    railroads, the vast majority of commuter railroads,         Develop and issue
                         safety.                                                       and the American Short Line and Regional Railroad           safety advisory.
                                                                                       Association. FRA plans to develop a Safety
                                                                                       Advisory to present this rule to the rail industry,
                                                                                       clarify its intent, and further enhance its
                                                                                       effectiveness.
42 11/23/05   R-05-010   Open 2.4 years. NTSB recommended that FRA require             Open - Unacceptable Response. FRA’s Railroad                Determine
                         train crews call out all signal indications over the radio,   Safety Advisory Committee continues to address              whether an
                         including clear signals, at all locations that are not        NTSB's concerns, although results of an evaluation          alternative
                         equipped with automatic cab signals with enforcement of       conducted by FRA did not indicate a feasible means          solution can be
                         a positive train control system.                              of implementing the intent of this recommendation.          implemented.
43 12/12/05   R-05-016   Open 2.4 years. NTSB recommended that FRA require             Open - Unacceptable Response. On April 1, 2008,             Respond to NTSB
                         railroads implement operating measures, such as               PHMSA and FRA jointly issued a NPRM to improve              to update the
                         positioning tank cars toward the rear of trains and           the crashworthiness protection of rail tank cars            actions taken.
                         reducing speeds through populated areas, to minimize          designed to transport poison inhalation hazard
                         impact forces from accidents and reduce the vulnerability     products. This NPRM included operational                    Issue final rule.
                         of tank cars transporting chlorine, anhydrous ammonia,        restrictions for trains hauling rail tank cars containing
                         and other liquefied gases designated as poisonous by          poison inhalation hazard products, among other
                         inhalation.                                                   requirements. In particular, it proposed a 30 miles
                                                                                       per hour speed restriction in dark territory for
                                                                                       existing tank cars transporting poison inhalation
                                                                                       hazard products.




       Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                         38


     Issue                                                                                                                                Actions Needed
 #    Date     Rec. No.                 Open NTSB Recommendation                     NTSB Classification and Actions Taken by FRA              by FRA
 44 06/29/06   R-06-010   Open 1.8 years. NTSB recommended that FRA prohibit        Open - Unacceptable Response. FRA’s Railroad         Determine the
                          the use of after-arrival track warrants for train         Safety Advisory Committee continues to address       safety and
                          movements in dark (non-signaled) territory not equipped   NTSB’s recommendation. Its Operating Rules           efficiency trade-
                          with a positive train control system.                     Working Group met with NTSB staff while studying     offs associated
                                                                                    after-arrival track warrants. FRA prepared a draft   with issuing after-
                                                                                    rule strictly limiting use of after-arrival track    arrival track
                                                                                    warrants that is under active discussion by the      warrants under
                                                                                    Operating Rules Working Group.                       differing operating
                                                                                                                                         conditions.

                                                                                                                                         Respond to NTSB
                                                                                                                                         with the results.
OIG Analysis




         Exhibit D. Open NTSB Rail Safety Recommendations From 1989 Through 2007
                                                                                                                                                                   39




EXHIBIT E. OPEN OIG RAIL SAFETY RECOMMENDATIONS FROM 2003 THROUGH 2007
   Issue    Report Title and
#   Date           No.                 Open OIG Recommendation                                     Actions Taken                                Actions Needed
1 06/16/04 Audit of the          Open 3.9 years. The Department should         FRA stated that it lacked the authority to require          Continue to support
           Highway-Rail          promote mandatory reporting                   reports from the states on the characteristics of           enactment of the
           Grade Crossing        requirements for railroads and states         grade crossings and needed Congress to grant that           Department’s proposed
           Safety Program        through rulemaking or legislation to          authority. Proposed language that would grant the           language.
           MH-2004-065           improve the accuracy and completeness         Department the authority to require states and
                                 of FRA's national grade crossing              railroads to submit reports to FRA on the
                                 inventory data, to identify high-risk         characteristics of grade crossings was included in
                                 crossings and strategies to mitigate risks.   the Administration’s rail safety reauthorization bills
                                 The data should also be used to monitor       that were transmitted to Congress in 1999, 2002,
                                 the effectiveness of the new action plan’s    2003, and most recently in February 2007. As of
                                 strategies, identify needed changes, and      April 2008, the proposed language had not been
                                 make adjustments, as necessary. FRA           enacted.
                                 and the Federal Highway Administration
                                 should work cooperatively to accomplish
                                 mandatory inventory reporting.
2 11/28/05 Audit of Oversight    Open 2.4 years. FRA should clarify            In January 2008, FRA officials stated that they             Issue NPRM by
           of Highway-Rail       accident reporting to the National            would clarify existing National Response Center             December 31, 2008, as
           Grade Crossing        Response Center by requiring railroads        reporting requirements by adding language limiting          planned.
           Accident              to report any grade crossing collision        the railroads responsibility for calling in fatalities to
           Reporting,            resulting in a fatality at the scene or       those that occur within the first 24 hours of a             Issue final rule.
           Investigations, and   within 24 hours of the accident.              collision. During 2008, FRA plans to include this
           Safety Regulations                                                  clarification in a NPRM on miscellaneous
           MH-2006-016                                                         amendments to Title 49 of the Code of Federal
                                                                               Regulations, Part 225, on Accident/Incident
                                                                               Reporting.




       Exhibit E. Open OIG Rail Safety Recommendations From 2003 Through 2007
                                                                                                                                                                    40


    Issue   Report Title and
 #   Date           No.                Open OIG Recommendation                                      Actions Taken                             Actions Needed
 3 05/03/07 The Federal          Open 1.0 years. FRA should strengthen         On December 5, 2006, FRA issued proposed                 Issue revised proposed
            Railroad             safety oversight by ensuring that the         statements of agency policy (proposed schedules of       penalty schedules by
            Administration       railroads comply with mandatory               civil penalties for rail safety violations) that         December 31, 2008, as
            Can Improve          requirements to report each grade             included a line-item increasing the dollar amount of     planned.
            Highway-Rail         crossing collision to FRA by issuing a        the civil penalty ordinarily assessed against a
            Grade Crossing       violation and assessing a civil penalty       railroad for failing to report a reportable
            Safety by Ensuring   each time a railroad fails to submit a        accident/incident, including a grade crossing
            Compliance With      grade crossing collision report in            collision. Under this proposal, the guideline fine for
            Accident             accordance with Federal requirements,         failing to report a grade crossing collision would
            Reporting            on a consistent basis. Moreover, FRA          increase from $2,500 to $5,000. In addition, the
            Requirements and     should assess higher civil penalties          guideline penalty for a willful violation of this
            Addressing Sight     against each railroad that repeatedly fails   requirement would increase from $6,500 to $9,000.
            Obstructions         to report crossing collisions.
            MH-2007-044                                                        In September 2007, FRA issued a final rule
                                                                               increasing the ordinary maximum civil penalty for a
                                                                               rail safety violation from $11,000 to $16,000, based
                                                                               on inflation. As a result, FRA continues to further
                                                                               revise its December 2006 proposed penalty
                                                                               schedules.
 4 05/03/07 The Federal          Open 1.0 years. FRA should work with          FRA officials stated that they have prepared an          Publish model legislation
            Railroad             the Federal Highway Administration to         initial draft of model legislation for states to         by August 31, 2008, as
            Administration       develop model legislation for states to       improve safety by addressing sight obstructions at       planned.
            Can Improve          improve safety by addressing sight            grade crossings with passive (non-automated)
            Highway-Rail         obstructions at grade crossings that are      warning signs.
            Grade Crossing       equipped solely with signs, pavement
            Safety by Ensuring   markings, and other passive warnings.
            Compliance With
            Accident
            Reporting
            Requirements and
            Addressing Sight
            Obstructions
            MH-2007-044
OIG Analysis



         Exhibit E. Open OIG Rail Safety Recommendations From 2003 Through 2007
                                                           41




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                                  Title

  Brenda R. James                       Program Director

  Wendy M. Harris                       Project Manager

  Thomas E. Lehrich                     Chief Counsel

  Harriet E. Lambert                    Writer-Editor




Exhibit F. Major Contributors to This Report
                                                                                     42




APPENDIX. MANAGEMENT COMMENTS




Thank you for your memorandum of July 10, 2008, transmitting the Office of the
Inspector General’s (OIG) draft report and inviting our comments. We at the Federal
Railroad Administration (FRA) appreciate not only the work and insight of your staff in
developing and preparing this report, but also their unfailing courtesy and cooperation
dealing with FRA’s staff throughout the audit. FRA’s responses to the draft
recommendations are provided below, and FRA’s comments on the rest of the draft
report are attached.

OIG’S DRAFT RECOMMENDATIONS TO FRA
“1. Establish a centralized process for documenting, tracking, and monitoring
congressional rail safety mandates that includes planned and actual milestones.”

FRA’s Response to Recommendation 1: FRA concurs with this recommendation. FRA
agrees that the current process for documenting, tracking, and monitoring congressional
rail safety mandates can be improved. FRA agrees that a centralized process will make
information on the actions taken to implement congressional rail safety mandates and
meet statutory deadlines more readily available for use in planning work assignments,
establishing milestones, assessing progress, preparing budgets, and reporting
accomplishments.



     Appendix. Management Comments
                                                                                      43


FRA plans to use its new Microsoft SharePoint tracking system to help implement this
recommendation. SharePoint is an intranet-based application with the flexibility to
specify access for reading and editing. The Office of Safety has just begun to use the
platform for safety regulatory planning and tracking, and mandates assigned to other
offices will also be incorporated.

“2.   Establish procedures to ensure that NTSB receives an:

“a. initial response for each rail safety recommendation within 90 days of issuance
and

“b. implementation timetable for each rail safety recommendation that FRA agrees
to implement.”

FRA’s Response to Recommendation 2.a.: FRA concurs with this recommendation.
Effective immediately, FRA has revised its current procedures for handling NTSB safety
recommendations. Under these new procedures, upon the Office of Safety’s receipt, on
or after the effective date of the procedures, of an NTSB safety recommendation, a
memorandum will be issued under the signature of the Director, Office of Safety
Assurance and Compliance, addressed to the specific divisional staff director (Staff
Director) who holds responsibility for addressing the particular safety recommendation.
Upon receipt of the memorandum, the divisional staff director or his or her delegate will
have 60 days to draft and return the initial response to the Office of Safety Assurance
and Compliance’s NTSB Liaison Officer. Upon receipt of the initial draft from the
appropriate staff director, the NTSB Liaison Officer will finalize the response and input
the response into the system for final approval of the draft of FRA’s initial response to
the NTSB recommendation within FRA and for dissemination of FRA’s initial response
to the recommendation to NTSB.

In addition, each month the Deputy Associate Administrator for Safety Compliance and
Program Implementation will hold a “stand up” meeting with the relevant parties (the
Deputy Associate Administrator for Safety Standards and Program Development, the
Director of the Office of Safety Assurance and Compliance, the NTSB Liaison Officer,
and the relevant Staff Directors) to discuss how the agency will respond to the NTSB
recommendations. This meeting will be held in conjunction with the monthly meetings
on the status of waivers and block signal applications. A passcode will be provided to
all the attendees so that those on travel can participate in the meeting. FRA’s NTSB
Liaison Officer will issue a monthly report that includes each overdue FRA initial
response to an NTSB recommendation; the monthly report will be used for the monthly
“stand up” meetings. FRA will continue to track the initial letters in FRA’s CCM
database or an alternative database, issue appropriate management reports, and follow
up.




      Appendix. Management Comments
                                                                                       44


FRA’s Response to Recommendation 2.b.: FRA concurs in Recommendation 2.b. but
with explanation. FRA endeavors to include in its responses to the Board information
regarding the general timetables for proposed actions. However, it must be recognized
that the actual milestones as executed may differ substantially because of factors outside
FRA’s control such as the following—

      a. In many cases actions suggested by the Board need to be considered within a
          larger context, and imperatives associated with the larger issues involved may
          affect schedules. For example, intervening statutory mandates sometimes
          divert staff and other resources to competing priorities, and economic and
          alternatives analysis may indicate that some other form of action is appropriate
          or that no known alternative action is supportable.

      b. Recent Office of Management and Budget guidance has further complicated
         the planning and clearance process for regulatory development, and the Office
         of the Secretary of Transportation retains the discretion to approve or
         disapprove even non-significant regulatory actions.

      c. Transitions in presidential administrations introduce delays in the form of
         regulatory freezes (in effect throughout the Federal Government for significant
         rules after November 1, 2008), and perhaps for some category of actions as a
         new administration enters.

For these reasons, FRA maintains contact with the Board through a variety of channels
to apprise the Board of the status of planned actions, to ensure, when possible,
participation by key Board staff (particularly within the Railroad Safety Advisory
Committee process), and to ensure that Board recommendations, like other safety
opportunities, are handled within a proper framework of agency priorities. Accordingly,
FRA will enclose with the agency’s initial response to a Board recommendation a
tentative timetable looking forward insofar as possible and will periodically update the
timetable as circumstances clarify or in response to altered priorities.




      Appendix. Management Comments
